No. ____________
IN THE

~uprcmc Oiourt of tqc ~nitco ~tatcs
DERRICK A. JOHNSON,
Petitioner,
v.
RAYBON JOHNSON,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Ashley S. Mahmoudian, a Deputy Federal Public Defender in the Office of
the Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. § 3006(A)(b), hereby certify that February 26, 2021
a copy of Petitioner’s MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, PETITION FOR WRIT OF CERTIORARI, and APPENDIX was
mailed postage prepaid to:

The names and addresses of those served are as follows:
E. Carlos Dominguez
Deputy Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013]
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 26, 2021.

As

/PL~L•Uf'-'

Depu

*
efender

Attorneys for Petitioner
DERRICK ARNOLD JOHNSON

*Counsel of Record

